                 

                 
                        U.S. ENVIRONMENTAL PROTECTION AGENCY 

                        OFFICE OF INSPECTOR GENERAL 




                        Limited Public Comment on
                        EPA’s Regulatory Flexibility
                        Act Section 610 Reviews
                        Report No. 12-P-0579                    July 19, 2012




Scan this mobile code
to learn more about
the EPA OIG.
Report Contributors:                               Daniel Carroll
                                                   Jerri Dorsey
                                                   Heather Drayton
                                                   Gabby Fekete




Abbreviations

EPA           U.S. Environmental Protection Agency
GAO           U.S. Government Accountability Office
OP            Office of Policy
RAPIDS        Rule and Policy Information and Development System
RFA           Regulatory Flexibility Act
SISNOSE       Significant Economic Impact on a Substantial Number of Small Entities




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                             12-P-0579
                                                                                                        July 19, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review
                                    Limited Public Comment on EPA’s Regulatory
The purpose of this review was      Flexibility Act Section 610 Reviews
to assess the reasons behind the
lack of comment on Regulatory        What We Found
Flexibility Act (RFA) Section
610 reviews conducted by the        An essential aspect of Section 610 reviews is obtaining public comment on the
U.S. Environmental Protection       impact of regulations. We found that EPA receives little to no public comment
Agency (EPA).                       when Section 610 review notices are published in the Federal Register. This
                                    limited public comment can hinder the ability of the Agency to implement an
Background                          effective Section 610 review process.
Under Section 610 of the RFA,       EPA’s ability to conduct effective retrospective reviews is dependent on
agencies are required to review     feedback from the public and the regulated community. We found that the
rules which have or will have a     shortage of comments may be the result of the following reasons:
significant economic impact on
a substantial number of small          	 If small business concerns are identified, the Agency is mandated by the
entities anytime within 10 years          RFA to address these during the initial rulemaking process, which could
of promulgation. The purpose              result in concerns being addressed at the outset.
of these reviews is for the            	 EPA is required by a number of other statutes to conduct retrospective
agency to determine whether               reviews; the Agency may have already reviewed and modified
such regulations should be                regulations before the 10-year mark for the Section 610 review. These
continued as written or should            other reviews are generally not coordinated with Section 610 reviews.
be amended or rescinded,                Ten years after a rule is finalized may not be the optimal time to seek
consistent with the stated                feedback; some rules may benefit from a review closer to issuance.
objectives of applicable
                                        Some of the stakeholders in the regulated community that we contacted
statutes, to minimize their
                                          were unaware of the purpose or execution of the Section 610 reviews.
impact on small entities.
                                     Recommendations/Planned Agency Corrective Actions

                                    We recommend that EPA’s Associate Administrator for Policy coordinate the
                                    Section 610 review with other required retrospective reviews, and implement
                                    additional public outreach efforts to increase awareness of the Section 610
                                    purpose and process.

For further information, contact    The Agency indicated that it is committed to coordinating Section 610 reviews
our Office of Congressional and     with other required reviews when appropriate. EPA agreed to implement
Public Affairs at (202) 566-2391.   additional public outreach to increase awareness of the Section 610 review
                                    purpose and process, including making changes to its Small Entities and
The full report is at:
www.epa.gov/oig/reports/2012/
                                    Rulemaking website within 3 months.
20120719-12-P-0579.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                                THE INSPECTOR GENERAL




                                          July 19, 2012

MEMORANDUM

SUBJECT:	 Limited Public Comment on EPA’s Regulatory Flexibility Act
          Section 610 Reviews
          Report No. 12-P-0579


FROM:          Arthur A. Elkins, Jr.

TO:            Michael Goo
               Associate Administrator, Office of Policy


This is a report on the subject evaluation conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. Your response will be posted on the OIG’s public website,
along with our memorandum commenting on your response. Your response should be provided
as an Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want to be released to the public; if your response contains such data, you should identify the
data for redaction or removal. We have no objections to the further release of this report to the
public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper at
(202) 566-0829 or copper.carolyn@epa.gov, or Jerri Dorsey at (919) 541-3601 or
dorsey.jerri@epa.gov.
Limited Public Comment on EPA’s                                                                                                12-P-0579
Regulatory Flexibility Act Section 610 Reviews


                                      Table of Contents
   Purpose........................................................................................................................    1


   Background .................................................................................................................       1


   Scope and Methodology.............................................................................................                 2


   Prior Audit Coverage ..................................................................................................            3


   Section 610 Reviews Receive Limited Public Comments .......................................                                        3


   Conclusion...................................................................................................................      5


   Recommendations ......................................................................................................             6


   Agency Comments and OIG Evaluation ...................................................................                             6


   Status of Recommendations and Potential Monetary Benefits..............................                                            7




Appendices
   A       EPA’s 2008–2010 Section 610 Reviews............................................................                            8


   B       Agency Response and OIG Comments............................................................                               9


   C       Distribution .........................................................................................................    11 

Purpose
                 The purpose of this review was to identify the reasons for the lack of public
                 comments and responses to the U.S. Environmental Protection Agency’s (EPA’s)
                 Regulatory Flexibility Act (RFA) Section 610 retrospective reviews.1

Background
                 The RFA requires agencies to examine the impact of their proposed and final
                 regulations on small entities. The purpose of the RFA is:

                          to establish as a principle of regulatory issuance that agencies shall
                          endeavor, consistent with the objectives of the rule and of
                          applicable statutes, to fit regulatory and informational requirements
                          to the scale of the businesses, organizations, and governmental
                          jurisdictions subject to regulation. To achieve this principle,
                          agencies are required to solicit and consider flexible regulatory
                          proposals and to explain the rationale for their actions to assure
                          that such proposals are given serious consideration.

                 In addition, under the 1996 amendments to the RFA, EPA is required to convene
                 panels to address small business concerns when these are identified in the
                 rulemaking process.2

                 Under Section 610 of the RFA, agencies are required to review rules that have or
                 will have a significant economic impact on a substantial number of small entities
                 (SISNOSE) within 10 years of promulgation. The purpose of these reviews is to
                 determine whether such regulations should be continued without change or should
                 be amended or rescinded, consistent with the stated objectives of applicable
                 statutes, to minimize their impact on small entities.

                 A Section 610 review involves:

                       Identifying a promulgated rule that was not certified (i.e., did not contain a
                         finding that there was no SISNOSE)3
                       Determining whether the rule should be amended, rescinded, or left
                         unchanged based on five statutorily prescribed factors:


1
   The initial purpose of this review was to assess the efficiency and effectiveness of the EPA’s policies and
procedures in place for conducting Section 610 retrospective reviews and outcomes from past reviews. Our purpose
was amended based on the lack of public comment received.
2
   The Small Business Regulatory Enforcement Fairness Act, enacted in 1996, added a judicial review provision to
the RFA, which means the Agency can be challenged in court as to its compliance with the provisions of this section
on a rule-by-rule basis. 
3
   This review did not include an assessment of the SISNOSE determination; our evaluation focused on those rules
that met the criteria of the Agency, not on critiquing those criteria.  


12-P-0579                                                                                                        1
                              1.	 The continued need for the rule 
                              2.	 The nature of complaints or comments received concerning the
                                  rule from the public 
                              3.	 The complexity of the rule 
                              4.	 The extent to which the rule overlaps, duplicates, or conflicts with
                                  other federal rules, and, to the extent feasible, with state and local
                                  governmental rules 
                              5.	 The length of time since the rule has been evaluated or the degree
                                  to which technology, economic conditions, or other factors have
                                  changed in the area affected by the rule.

                 According to data provided by EPA’s Office of Policy (OP), since 1996 EPA has
                 completed 35 Section 610 reviews.4 In conducting a Section 610 review, EPA’s
                 guidance provides that the Agency must specifically address and ask the public
                 for comment on the five factors outlined above. In addition to the Section 610
                 reviews, EPA conducts other mandatory reviews to comply with statutes that
                 apply specifically to areas that program offices regulate.5

Scope and Methodology
                 We conducted this evaluation in accordance with generally accepted government
                 auditing standards. Those standards require that we plan and perform the evaluation
                 to obtain sufficient, appropriate evidence to provide a reasonable basis for our
                 findings and conclusions based on our objectives. We believe that the evidence
                 obtained provides a reasonable basis for the results reported based upon our
                 objectives. We performed this evaluation from September 2011 through May 2012.

                 We reviewed EPA planning and implementation documents, federal documents and
                 information related to the RFA, Section 610 reviews, and retrospective reviews in
                 general. We reviewed EPA’s internal Rule and Policy Information and
                 Development System (RAPIDS) database. We conducted interviews with staff at
                 EPA’s OP, as well as with EPA’s Office of Air and Radiation and Office of Water.
                 We also reviewed the Agency’s Regulatory Agendas for 2007–2010, which include
                 the list of regulations to be reviewed under Section 610 each year. We conducted a
                 detailed analysis of the universe of Section 610 reviews completed by EPA during
                 the calendar year 2010 (see appendix A for the list of reviews and details6). In
                 assessing the four reviews completed in 2010, we interviewed external stakeholder
                 groups active in the Agency’s rulemaking process but not specifically involved in
4
   We found one Section 610 review that was scheduled to be conducted in 2009 that was not conducted within the
10-year timeframe: Heavy-Duty Engine Emission Standards & Diesel Fuel Sulfur Control Requirements
(RIN: 2060-AI69; SAN: 4355). The Agency is currently executing this review.  
5
   According to the U.S. Government Accountability Office, some statutes that require EPA to conduct mandatory
retrospective reviews include: Clean Air Act; Clean Water Act; Federal Food, Drug, and Cosmetic Act; Federal
Insecticide, Fungicide, and Rodenticide Act; Comprehensive Environmental Response, Compensation and Liability
Act; and Safe Drinking Water Act. 
6
   Appendix A lists the four reviews completed during calendar year 2010, as well as those done in 2008 and 2009.
We completed a detailed review of those done in 2010 and a limited assessment of those from 2008 and 2009. 


12-P-0579                                                                                                       2
                  the Section 610 review process.7 We also did a cursory assessment to determine the
                  number of comments received on and any changes made to Section 610 reviews
                  conducted in calendar years 2008 and 2009.

Prior Audit Coverage
                  The U.S. Government Accountability Office (GAO) reviewed the RFA and
                  EPA’s work under Section 610 in at least five reports since the late 1990s.8
                  In general, GAO found that EPA used Section 610 as a notice and comment
                  requirement. GAO noted the importance of EPA utilizing a systematic approach
                  to conducting Section 610 retrospective reviews. GAO found that it was unclear if
                  the Section 610 provision in the RFA had been consistently and effectively
                  implemented. In a series of reports on agencies’ compliance with Section 610,
                  specifically in GAO-07-791, GAO identified important practices that can have an
                  impact on the effectiveness and transparency of each phase of the review process
                  and assessed the extent to which these three practices were a part of agencies’
                  processes and standards. Important practices identified by GAO include:
                  (1) use of a standards-based approach, (2) incorporation of public involvement,
                  and (3) documentation of review processes and results. GAO found that, for the
                  mandatory reviews completed within the timeframe for their evaluation, the most
                  common result for a Section 610 review was that no changes were needed to the
                  regulation. There were no previous OIG reviews of this subject matter.

Section 610 Reviews Receive Limited Public Comments

                  EPA receives little to no public comment on Section 610 reviews. During 2008
                  through 2010, EPA conducted eight Section 610 reviews. Specifically:

                      	 In 2010, EPA conducted four Section 610 reviews. EPA received relevant
                           comments on two of the four reviews.9 After reviewing these comments
                           and posting them in the federal docket, the Agency concluded that
                           revisions or amendments to minimize economic impacts on small entities
                           were not warranted for these rules at that time.  


7
   These stakeholders were selected because they commented on draft EPA rulemakings but not on the Section 610
reviews related to these rules. During field work, we contacted seven stakeholders to determine their reasons for not
participating in the Section 610 process and to obtain their perspectives; however, we were ultimately only able to
discuss these reviews with four of the seven. 
8
   GAO/T-GGD-98-64, Regulatory Reform: Agencies’ Section 610 Review Notices Often Did Not Meet Statutory
Requirements, February 1998; GAO/RCED-99-250, Environmental Protection: Assessing the Impacts of EPA’s
Regulations through Retrospective Studies, September 1999; GAO/GGD-00-193, Regulatory Flexibility Act:
Implementation in EPA Program Offices and Proposed Lead Rule, September 2000; GAO-06-998T, Regulatory
Flexibility Act: Congress Should Revisit and Clarify Elements of the Act to Improve Its Effectiveness, July 2006; and
GAO-07-791, Reexamining Regulations: Opportunities Exist to Improve Effectiveness and Transparency of
Retrospective Reviews, July 2007.
9
   EPA received five comments on the Radionuclides Section 610 review and eight on the Arsenic review. See
appendix A for specific details.


12-P-0579                                                                                                           3
                      	 In 2009, EPA conducted one review and received one comment
                         supporting the continued need for the rule.10  

                      	 In 2008, EPA completed three reviews for which one received comment
                           from a stakeholder. This comment suggested additional coverage for one
                           of the rules; EPA considered this comment and provided a response in the
                           Section 610 review decision document the Agency published and
                           suggested an EPA contact person for the commenter.  

                  None of the eight reviews conducted from 2008 to 2010 resulted in a change to a
                  rule or regulation. According to Agency staff, it is typical that Section 610
                  reviews do not result in a revision.

                  External stakeholders and program office staff offered a number of reasons why
                  EPA garners little to no response to these reviews. First, a Small Business
                  Advocacy Review Panel would have been convened in the initial rule writing
                  process if there were small business concerns. If the concerns are vetted by the
                  public and addressed by the Agency during the rulemaking process, the frequency
                  and amount of comments received during the Section 610 review process could be
                  reduced.

                  Second, program office staff reiterated that EPA is required by other statutes to
                  conduct mandatory retrospective reviews, including requirements in the Clean Air
                  Act and the Clean Water Act. The frequency of these reviews ranges from every
                  2 years to every 10 years. For instance, the frequency of reviews conducted by the
                  Office of Water ranges from every 2 years to every 6 years, depending on the
                  review requirement. The Office of Air and Radiation is required to conduct
                  reviews under the Clean Air Act ranging from every 5 years to every 8 years.
                  These reviews are in addition to the Section 610 review requirement. Therefore,
                  when reviews that have predetermined schedules and review factors (such as the
                  Section 610 reviews) arise, the Agency might have already reviewed and
                  potentially modified the regulation one or more times. We found this to be the
                  case for two of the eight Section 610 reviews we assessed in our evaluation. The
                  Agency, recognizing the potential for overlap, is assessing the potential for
                  coordinating these reviews as part of its work under Executive Order 13563,
                  “Improving Regulation and Regulatory Review.”

                  Third, Section 610 requires that EPA review the rule within 10 years of the date
                  the rule became final.11 According to the Agency’s guidance, conducting the
                  review close to the 10-year anniversary allows for a more focused perspective on
                  any changed impacts on small entities. However, external stakeholders and

10
    According to EPA’s internal tracking system, there were two Section 610 reviews conducted in 2009. However, 

there is no record in the Federal Register or in www.regulations.gov indicating that the rule cited actually underwent 

a Section 610 review. EPA’s OP staff found that this rule never received the scheduled Section 610 review, and OP 

is currently executing it. This was the only error we found of this type in conducting our review. 

11
    EPA adopted the practice of conducting the Section 610 reviews at the 10-year mark.
 


12-P-0579                                                                                                            4
            program staff expressed concerns surrounding the 10-year time frame. For
            example, one external stakeholder representative expressed that prior to the
            10-year mark, entities were already in compliance and therefore lacked the
            incentive to provide comments. Additionally, regulated entities may be more
            concerned with what comes next rather than the “ten year old rule.”

            Finally, there are external stakeholders in the regulated community who are
            unaware of the purpose or execution of the Section 610 reviews. Section 610
            requires EPA to publish a plan semiannually in the Federal Register that lists the
            existing rules EPA plans to review, which it does as part of its semiannual
            Regulatory Agenda. We found that EPA issues notification of Section 610
            reviews through the Agency’s normal notice and comment procedures in the
            Federal Register. In not conducting additional outreach, EPA may be missing
            affected external stakeholders who would otherwise participate in the process.
            Two of the four external stakeholder groups with whom we spoke stated that they
            had no knowledge of the Section 610 review process prior to our conversations.
            One of these two stakeholders was particularly concerned and indicated that it
            was a significant lost opportunity. External stakeholders expressed the concern
            that solely publishing a notice in the Federal Register of a regulation undergoing a
            review is not sufficient.

            In EPA’s guidance on the RFA as a whole, public involvement is given
            substantial consideration, noting that “simply providing notice of EPA’s intent is
            not enough. Adequate outreach also requires that we seek opportunities for
            genuine engagement that places the Agency in a position to hear from and
            respond to small entities.” Furthermore, the Small Business Administration’s
            Office of Advocacy recommended that agencies additionally communicate
            information on Section 610 reviews via an agency website or other electronic
            media. Some external stakeholders said that EPA should attempt to disseminate
            information about the Section 610 review process and any upcoming reviews,
            particularly when already speaking to the regulated community.  

Conclusion
            Given that the 10-year review period for Section 610 reviews is a window and not
            a deadline, the possibility exists for consolidating the program offices’ review
            workload. Both EPA and the Small Business Administration’s Office of
            Advocacy recognize the potential to coordinate reviews wherever there is
            functional equivalency. As previously noted by GAO, Section 610 of the RFA is
            essentially a notification requirement that is designed to provide opportunities for
            the public to comment. EPA’s ability to conduct retrospective reviews is critically
            dependent on feedback from the public and the regulated community. EPA is
            receiving little to no comment when Section 610 review notices are published in
            the Federal Register. Limited public comment may hinder the ability of the
            Agency to implement an effective Section 610 review process. By making the
            public and stakeholder groups more aware of the Section 610 review process,


12-P-0579                                                                                        5
            EPA may identify beneficial regulatory improvements for a broad representation
            of the public.  

Recommendations
            We recommend that the Associate Administrator for EPA’s Office of Policy:

               1.	 Coordinate the Section 610 reviews with other required retrospective
                   reviews across regulated communities to the extent practicable.

               2.	 Implement additional public outreach efforts to increase awareness of the
                   Section 610 review purpose and process.

Agency Comments and OIG Evaluation
            The Agency concurred with both recommendations as currently worded, and was
            in general agreement with the report’s description of the Section 610 review
            process. EPA agreed that opportunities exist to enhance the Section 610 review
            process. The Agency acknowledged that the reviews studied did not result in
            changes to regulations, but disagreed with the OIG’s characterization of the
            process as minimally effective. We revised the sentences of concern to better
            reflect the link between limited public comment and the Agency’s ability to
            conduct effective Section 610 reviews. The Agency’s detailed response with the
            OIG’s evaluation is provided in appendix B.




12-P-0579                                                                                      6
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                         POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                       BENEFITS (in $000s)

                                                                                                             Planned
    Rec.    Page                                                                                            Completion   Claimed    Agreed-To
    No.      No.                         Subject                       Status1       Action Official           Date      Amount      Amount

     1        6    Coordinate the Section 610 reviews with other            O    Associate Administrator,
                   required retrospective reviews across regulated                   Office of Policy
                   communities to the extent practicable.

     2        6    Implement additional public outreach efforts to          O    Associate Administrator,
                   increase awareness of the Section 610 review                      Office of Policy
                   purpose and process.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-P-0579                                                                                                                                       7
                                                                                              Appendix A

                EPA’s 2008–2010 Section 610 Reviews
                                                                 Number of Relevant         Rule Changed:
 Year        Rule Title and Docket Locator Information           Comments Received             Yes/No
 2010      National Primary Drinking Water Regulations:                     5                      No
           Radionuclides (Section 610 Review) (RIN:2040-
           AF19; 2040-AC98; SAN:3992 SAN:5445)
 2010      Effluent Guidelines and Standards for the                        0                      No
           Centralized Waste Treatment Industry (Section
           610 Review) (RIN:2040-AF18; SAN:5444;
           RIN:2040-AB78; SAN:2805)
 2010      Tier II Light-Duty Vehicle and Light-Duty Truck                  0                      No
           Emission Standards and Gasoline Sulfur
           Standards (Section 610 Review) (RIN:2060-
           AQ12; SAN:5432; (RIN:2060-AI23; SAN:4211)
 2010      National Primary Drinking Water Regulations:                     8                      No
           Arsenic and Clarifications to Compliance and
           New Source Contaminants Monitoring
           (RIN: 2040-AF24; SAN:5487)
200912     Revisions to the Underground Injection Control                   1                      No
           (UIC) Requirements for Class V Wells (RIN:2040-
           AF04; SAN:5332; RIN:2040-AB83; SAN:2778)
 2008      Control of Emissions of Air Pollution From                       0                      No
           Nonroad Diesel Engines (Section 610 Review)
           (RIN:2060-AO82; SAN:5254;2060-AF76;
           SAN:3645)
 2008      National Primary Drinking Water Regulations:                     0                      No
           Stage I Disinfectant/Disinfection By-Products Rule
           (Section 610 Review) (RIN:2040-AE97;
           SAN:5258; RIN:2040-AB82; SAN:2772)
 2008      VOC Regulation for Architectural Coatings                        1                      No
           (Section 610 Review) (RIN:2060-AP09;
           SAN:5255; RIN:2060-AE55; SAN:3351)
Source: OIG analysis.




12
  There was one additional Section 610 review that should have been completed in 2009: Heavy-Duty Engine
Emission Standards & Diesel Fuel Sulfur Control Requirements (RIN: 2060-AI69; SAN: 4355). The rule did not
undergo its Section 610 review within the 10-year window. The Agency is currently executing this review. 


12-P-0579                                                                                                    8
                                                                                       Appendix B

               Agency Response and OIG Comments
                                            July 18, 2012

MEMORANDUM


SUBJECT:	 Response to Draft Report:
          Limited Public Comment on EPA’s Regulatory Flexibility Act Section 610
          Project No: OPE-FY11-0024


FROM:	         Michael L. Goo, Associate Administrator


TO:	           Jeffrey Harris, Director for Program Evaluation, Cross Media Issues
               Office of Inspector General


EPA appreciates the opportunity to comment on the Office of Inspector General’s (OIG) draft
evaluation report “Limited Public Comment on EPA’s Regulatory Flexibility Act Section 610
Reviews.”
We are in general agreement with the report’s description of the Section 610 review process.
However, we believe that there is insufficient information included in the report to conclude that
the effectiveness of EPA’s Section 610 reviews is “minimal.” While we acknowledge that the
reviews studied did not result in changes to regulations, we believe that our process is effective.
As currently drafted the report implies that to be effective Section 610 reviews should result in
changes to regulations, notwithstanding the merits of such changes. Additionally, as noted in the
report there are a variety of reasons why the public may not respond to these reviews. As a result,
we suggest that OIG delete the two sentences in the report that contain this characterization.

 OIG Response: The OIG appreciates EPA’s general concurrence with our description of the
 process. We revised the sentences of concern to better reflect the link between limited public
 comment and the Agency’s ability to conduct effective Section 610 reviews.

We agree that opportunities exist to enhance our Section 610 review process and concur with the
two recommendations offered in the report.

With respect to the first recommendation, as noted in the report, EPA is already committed to
harmonizing Section 610 Reviews with other required reviews when appropriate. EPA
committed to this in our Executive Order 13563 retrospective review plan and OP is working
with the program offices on implementation of this.




12-P-0579                                                                                         9
With respect to the second recommendation, EPA agrees to implement additional public
outreach to increase awareness of the Section 610 review purpose and process. We plan to make
changes to our Small Entities and Rulemaking website (http://www.epa.gov/rfa/) within three
months. Specifically we will be providing a list rules for which upcoming Section 610 reviews
are required, the due date for the review, and any other retrospective reviews required for the
rule. We will also be using our website to highlight any Section 610 reviews open for public
comment. Finally, we intend to suggest to the Small Business Administration’s Office of
Advocacy that they include information about these reviews on their website and in their
newsletters.

    OIG Response: The OIG appreciates EPA’s response and commitment to making these
    changes. In regard to the first recommendation, we acknowledge that the Agency has
    agreed to the first option afforded in the recommendation and was silent on the second
    option. We revised the recommendation to reflect the agreed-to recommendation as it
    meets the overall intent. In its 90-day response to the final report, EPA should provide
    estimated completion dates for all agreed-to actions and specific corrective action plans.

Again, thank you for the opportunity to comment on this report. If you or your staff has
questions regarding this response, please contact Nathaniel Jutras at 202-564-0301.


cc: 	Nicole Owens
     Alex Cristofaro

          
 

 




12-P-0579                                                                                        10
                                                                            Appendix C

                                     Distribution
Office of the Administrator
Associate Administrator, Office of Policy
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of the Administrator




12-P-0579                                                                           11
